Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives

For Release on Delivery
Expected at               Status Report on Actions
2:00 p.m. EDT
Wednesday
April 9, 2008
                          Underway To Address
CC-2008-058
                          Flight Delays and
                          Improve Airline
                          Customer Service


                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to discuss initiatives underway by the Department of
Transportation (DOT), Federal Aviation Administration (FAA), airlines, and airports
to address delays and improve airline customer service. This hearing is timely given
the record-breaking delays and cancellations that air travelers experienced last year
and the upcoming busy travel season.

As this Subcommittee is aware, summer 2007 was part of the worst year on record for
flight delays, cancellations, and long, on-board delays. From January through
December 2007, over 1 in 4 flights (29 percent) were delayed or cancelled, affecting
about 163 million passengers. More than 88,234 flights experienced taxi-in and taxi-
out times of 1 hour to 5 hours or longer, affecting nearly 5.9 million passengers.

Our statement today is in response to the Chairman’s request for an “after-action”
analysis of (1) contributing factors to last summer’s record-breaking flight delays; (2)
the status of ongoing efforts by DOT, the airlines, and airports to improve airline
customer service in response to record delays and our recommendations last
September; 1 and (3) actions needed in the near- and mid-term to mitigate congestion
and delays.

Secretary Peters has made reducing delays and improving the treatment of travelers a
top priority within the Department. Because delays in the New York region had a
nationwide effect, the Secretary formed the New York Aviation Rulemaking
Committee (ARC) last September to explore various strategies to alleviate congestion
and reduce delays in the New York area. At the same time, the Department ordered a
schedule reduction meeting for John F. Kennedy International Airport (JFK), resulting
in temporary flight caps at both JFK and Newark airports beginning this spring. The
Department has also established a national task force to develop model contingency
plans for minimizing the impact of long, on-board delays.

The success of efforts by all aviation stakeholders is particularly critical as aircraft
load factors are at an all-time high of over 80 percent. Each year, Americans lose
over $9 billion in productivity from flight delays. Moreover, in the last 7 years, flight
delays and cancellations have continued as the underlying causes of deep-seated
customer dissatisfaction with air travel. We share the Subcommittee’s concerns and
note that ongoing efforts must translate into relief for air travelers in summer 2008
and beyond.




1
    OIG Testimony Number CC-2007-099 “Actions Needed To Improve Airline Customer Service and Minimize Long, On-
    Board Delays,” September 26, 2007. OIG reports and testimonies are available on our website: www.oig.dot.gov.


                                                                                                               1
After-Action Report: Multiple Factors Contributed to Last Summer’s
Flight Delays
The record-breaking flight delays of 2007 were magnified during the summer of 2007
when flight delays and cancellations hit all-time highs at major airports nationwide.
We found that the number of passengers affected by delays last summer increased by
20 percent over the summer of 2006 (from 37,521,321 passengers to
44,871,404 passengers). The statistics below illustrate the severity of delays and
cancellations during this period 2 at the 55 airports tracked by FAA.

    • Delayed flight arrivals 3 rose from 26 percent in the summer of 2006 to 29 percent
      last summer. This represents nearly 621,000 delayed flights in the summer of
      2007—an increase of 15 percent above the approximately 539,000 delayed flights
      in the summer of 2006.
    • The average length of delays rose from 56 minutes in the summer of 2006 to
      60 minutes in the summer of 2007 (a 7-percent increase). The length of the delays
      at 52 of the 55 airports increased, ranging from a less than 1-minute increase at
      Phoenix Sky Harbor International Airport to an 11-minute increase at Dallas/Fort
      Worth International Airport (DFW).
    • Flight cancellations last summer (48,000 flights) increased by 28 percent over the
      summer of 2006 (37,000 flights cancelled), affecting nearly 3.2 million passengers
      during the summer of 2007.
    • While flight operations for last summer were mostly unchanged nationwide
      compared to the summer of 2006, some airports experienced increased flight
      operations and corresponding delays. For example, at JFK, flight operations
      increased by 20 percent (an additional 9,700 scheduled flights) last summer.
      Delays and cancellations also increased during that period by 36 percent.

Also, according to the Department’s Bureau of Transportation Statistics (BTS), long,
on-board tarmac delays of 1 hour to 5 hours or longer increased by 25 percent (from
25,547 to 31,931 flights) over the summer of 2006, affecting over 2 million
passengers last summer.
These statistics underscore the degree to which passengers are inconvenienced when
traveling by air. The traveling public knows the aviation system needs improvement,
and actions are needed by the airlines, airports, and FAA if consumer confidence is to
be restored.

In the summer of 2007, we found that late arriving aircraft ranked as the number one
cause of delays (35 percent), with carrier-caused delays (29 percent) and weather
(23 percent) ranked as number two and three, respectively.

2
    Data for summer months were taken from June, July, and August.
3
    A flight is considered delayed when it arrives 15 or more minutes after its scheduled arrival time.


                                                                                                          2
However, the causal categories that BTS uses to gather data from airlines are too
broad to accurately portray delay types. For example, late arriving aircraft delays can
be attributable to a single factor, such as severe weather conditions, or a combination
of factors, such as aircraft maintenance issues or ground holds. Also, the root cause
of “carrier-caused delays” cannot be determined with any degree of precision because
that information is not collected.

BTS needs to analyze the “late arriving aircraft” category to identify the factors
driving delays and allocate those factors across the other categories—carrier-caused,
weather conditions, the National Airspace System, and airport security. This type of
analysis could also help to determine the underlying causes of flight cancellations, but
no agency currently conducts this analysis. Until this step is taken, the root causes of
delays cannot be determined with any degree of precision.

We therefore used various sources of data to further examine causes of delays at
15 major airports 4 that had the largest increases in delays between the summers of
2006 and 2007.

System-Wide Effect of Prior Delays: Delays are categorized as “late arriving
aircraft” when the previous flight operated with the same aircraft arrives late, delaying
that aircraft’s next flight. This categorization is non-specific because it does not
address the root causes of the late arriving aircraft. Although carrier- and weather-
caused delays were reported as the leading causes of delayed flights, the system-wide
effect of those delays is far reaching. This “ripple effect” can then become the
underlying cause of delays for other flights throughout the system, which are not
directly experiencing carrier- or weather-caused delays. Late flights caused by
previous delays in the system increased during the summer of 2007 to over one-third
of all delayed flights. At the 15 airports reviewed, the “ripple effect” delayed
64,000 arriving aircraft last summer.

Carrier-Caused Delays: Carrier-caused delays were reported as the number one
cause of delays at 5 of the 15 airports we reviewed last summer. Details were not
available to identify the specific carrier issues, such as mechanical, aircraft servicing,
or gate availability problems. However, we did determine that shortages of cockpit
crew members led more than 1,000 cancellations at Northwest Airlines last summer.




4
    The 15 airports examined for delays are members of the Airports Council International-North America (ACI) and include
    Chicago O’Hare International, Dallas/Fort Worth International, Dallas Love Field, Denver International, Fort Lauderdale
    International, Hartsfield-Jackson Atlanta International, John F. Kennedy International, LaGuardia, Miami International,
    Minneapolis-St. Paul International, Newark Liberty International, Philadelphia International, Phoenix Sky Harbor
    International, Ronald Reagan Washington National, and Tampa International. ACI is the trade association for America’s
    largest airports. Its members enplane more than 95 percent of the domestic and virtually all the international airline
    passenger and cargo traffic in North America.


                                                                                                                         3
Weather Conditions: At the majority of the airports we reviewed, the severity of
weather impacting flight operations did not decline appreciably between the summers
of 2006 and 2007. Nonetheless, airlines at those airports reported that weather was
the leading, direct cause of delays (32 percent). The apparent conflict is answered by
considering that as schedules increasingly exceed capacity, even in good weather, the
slightest degradation in weather conditions can disproportionately affect on-time
performance.

Airspace Congestion: While many airports and their surrounding airspace have
adequate capacity, other locations reached their saturation points, including air
corridors connecting New York, Chicago, and Atlanta. The biggest airspace
bottlenecks this past summer were at the three major New York area airports and the
surrounding airspace, accounting for more than one-third of the flight delays system-
wide.

Airline Scheduling and Airport Capacity: In 2007, airlines scheduled flights above
airport capacity to handle demand, and this contributed significantly to delays at
specific airports. Our analysis of the 15 airports examined showed that during
summer 2007, 6 had flights scheduled either at or over capacity at optimum weather
conditions. For example, in one 15-minute period at Chicago O’Hare International
Airport, we found that over 45 flights were scheduled to depart—nearly double the
average departure capacity of the airport at that time. There were 2 other 15-minute
time periods when 35 or more flights were scheduled to depart in one 15-minute
period.

When airports are over-scheduled during peak hours, even small increases in flight
operations can have a disproportionately larger impact on flight delays, as was the
case in the New York region. For example, as flight operations expanded at JFK over
the last several years, delays increased at that airport and at LaGuardia and Newark.

Spacing of Aircraft on Final Approach: While problems are traceable to increased
operations, “excessive spacing” on final approach was also a factor in the New York
area. In its December 2007 report, the New York ARC reported that spacing between
aircraft on final approach has been steadily increasing beyond limits needed for
safety, which contributed significantly to arrival delays at JFK, LaGuardia, and
Newark airports.

Because of additional spacing, well-established, predictable airport acceptance rates
became unreliable. This resulted in increased probability of go-arounds, no-notice
holdings, increased vectoring, and sector overload. FAA recognizes the importance
of the problem but has not quantified the impact on last summer’s delays.




                                                                                    4
Outlook for Summer 2008
Whether or not delays this summer will reach the extreme levels of last year depends
on several factors. These include weather conditions, impacts of a softening economy
and higher fuel prices on the industry, major airlines’ efforts to reduce capacity (by
taking aircraft out of service), and the effectiveness of initiatives planned or underway
at already congested airports. We note that three airlines have ceased operations in
the last 2 weeks.

Our analysis shows that there are several airports to watch closely this summer
because of severe peaking during part of the day. These include the three New York
airports as well as the Chicago O’Hare and Minneapolis-St. Paul airports. For
example, Northwest Airlines has scheduled 56 departures in one 15-minute window at
Minneapolis-St. Paul—nearly three times the airport’s departure capacity for that
window.

DOT, the Airlines, and Airports Have Progressed Toward Improved
Airline Customer Service, but Much Work Remains
Since we last testified in September 2007, DOT, the airlines, and airports have begun
initiatives to address the action items we outlined at that hearing.

Departmental Efforts: In 2007, 5 we recommended that the Department take a more
active role in overseeing customer service issues by ensuring that airlines include
long, on-board delays in their on-time performance reporting, conducting incident
investigations of these delays, and closely monitoring the airlines’ policies for dealing
with them.

• In November 2007, the Department issued two proposed rulemakings to address
  measures for enhancing airline passenger protection and airline quality performance
  reporting (to fill in data gaps giving consumers a more accurate portrayal of arrival
  and tarmac delays). Specifically, these two rulemakings address, among other
  things, clarifying terms in airlines’ contingency plans, establishing specific targets
  for reducing chronically delayed or cancelled flights, disclosing on-time flight
  performance on the airlines’ Internet sites, resuming efforts to self-audit customer
  service plans, and implementing the necessary changes in the airlines’ on-time
  performance reporting to capture all long, on-board delays.
• In January 2008, the Department established a national task force to develop model
  contingency plans for minimizing the impact of long, on-board delays. The task
  force will also address our recommendation to conduct incident investigations of
  long, on-board delays and their causes; identify trends and patterns of such
  incidents; and determine solutions to mitigate the impact on passengers. The task
  force will report its results and recommendations directly to the Secretary.

5
    OIG Report Number AV-2007-077 “Actions Needed To Minimize Long, On-Board Flight Delays,” September 25, 2007.


                                                                                                               5
Airline Efforts: The airlines have initiated their own voluntary actions to enhance
customer service, as promised in the Airline Customer Service Commitment of 1999
(see figure below).

As we emphasized at the last hearing—the key to the success of these planned actions
will be execution. In 2007, we recommended, among other things, that DOT require
airlines to clarify delay terminology, set limits for delay durations before deplaning
passengers, and establish targets to reduce chronically delayed flights.
                                                                   Figure. Provisions of the Airline Customer
The following summarizes the                                                     Service Commitment
Air Transport Association (ATA)                         •   Offer the lowest fare available.
                                                        •
member-airlines’ 6 progress to                          •
                                                            Notify customers of known delays, cancellations, and diversions.
                                                            Deliver baggage on time.
date:                                                   •   Support an increase in the baggage liability limit.
                                                        •   Allow reservations to be held or cancelled.
• Eleven of 12 ATA member                               •   Provide prompt ticket refunds.
                                                        •   Properly accommodate disabled and special-needs passengers.
  airlines have defined “an                             •   Meet customers’ essential needs during long, on-aircraft delays.
  extended period of time” for                          •   Handle “bumped” passengers with fairness and consistency.
  meeting passengers’ essential                         •   Disclose travel itinerary, cancellation policies, frequent flyer
                                                            rules, and aircraft configuration.
  needs during long, on-board •                             Ensure good customer service from code-share partners.
  delays. Two airlines consider •                           Be more responsive to customer complaints.
  this internal policy not publicly Source: Airline Customer Service Commitment, June 1999
  available,       three       have
  incorporated it into their customer service plans and placed it on their Internet sites,
  and six have incorporated it into their contracts of carriage 7 —only then does it
  become legally enforceable by the customer against the airline.
    The trigger thresholds for meeting passengers’ essential needs vary from a half-hour
    to 2 hours on arrival and from 1.5 hours to 3 hours on departure. We think it is
    unlikely that passengers’ definition of an extended period of will vary depending
    upon which airline they are flying. We are still of the view that a consistent policy
    across the airlines would be helpful to passengers.
• Eleven of the 12 ATA airlines have now set a time limit on delay durations before
  deplaning passengers or elevating the situation to senior operational managers for
  resolution. Three airlines consider this as an internal policy, only one has
  incorporated it into its customer service plan, and seven have incorporated this into


6
    The Air Transport Association is the trade association for America’s largest air carriers. Its members transport over
    90 percent of all the passenger and cargo traffic in the United States. The 12 airlines selected for review are members of
    the Air Transport Association (ATA) and include Alaska Airlines, Aloha Airlines, American Airlines, Continental
    Airlines, Delta Air Lines, Hawaiian Airlines, JetBlue Airways, Midwest Airlines, Northwest Airlines, Southwest Airlines,
    United Airlines, and US Airways. Aloha Airlines just recently went out of business. AirTran Airways just recently
    became a member of ATA.
7
    A contract of carriage is the document air carriers use to specify legal obligations to passengers. Each air carrier must
    provide a copy of its contract of carriage free of charge upon request. The contract of carriage is also available for public
    inspection at airports and ticket offices.


                                                                                                                               6
 their contracts of carriage. The trigger thresholds for deplaning passengers vary
 from a half-hour to 5 hours on arrival and 1 hour to 5 hours on departure.
• Only 4 of the 12 ATA airlines have completely satisfied our recommendation to
  establish specific targets for reducing chronically delayed or cancelled flights.
  These airlines established a “zero tolerance” policy for reducing chronically delayed
  and cancelled flights. However, only three of those four airlines publish
  information about chronically delayed flights and methods for handling them in
  their customer service plans. Unfortunately, many airlines are losing an opportunity
  to educate the public on the efforts they are taking to reduce delays.

While some airlines are making a concerted effort to improve the passenger
experience, others are not willing to formally promise this in their customer service
plans and contracts of carriage. It is still our opinion that the airlines need to publish
their promises to customers in writing with all the Commitment provisions and
associated policies. This would hold the airlines to a higher standard and clearly
demonstrate that their commitment to customer service matters.

Airport Efforts: In 2007, we recommended that DOT, airlines, and airports convene
a task force to address lengthy delays. We also recommended that airport operators
implement processes to monitor and mitigate long, on-board delays. The airports
have begun the following initiatives to address delays and improve air travelers’
experience, but further actions are needed:

• Convening a task force of vested stakeholders to address flight delays and customer
  service issues in the New York area. In our prior testimony, we reported that the
  Port Authority of New York and New Jersey convened a task force in July 2007 to
  focus on the burgeoning problem of flight delays and customer service. The task
  force issued its report on December 6, 2007, identifying a total of
  96 recommendations to enhance capacity, reduce delays, and improve customer
  service for the region’s three major airports. Nineteen of the recommendations
  address improving customer service through better communication with passengers
  and better coordination among airlines, airports, and the various service providers.
  The task force intends to meet this summer to assess the status of the
  recommendations.
• Convening workshops of vested stakeholders to address contingency planning for
  extraordinary flight disruptions. Two workshops were convened—one hosted by
  DFW and the other by Airports Council International-North America—to identify
  best practices for contingency planning during extraordinary flight disruptions. A
  cross-section of airports, airlines, government agencies, and industry vendors
  attended the workshops. Breakout sessions were held to identify best practices for
  dealing with flight disruptions and passenger care.




                                                                                        7
• Monitoring tarmac delays and assisting airlines during flight disruptions. In our
  prior testimony, we emphasized that airport operators must become more involved
  in contingency planning for extraordinary flight disruptions. We found that the
  Airports Council International member-airports selected for review 8 are, to some
  degree, getting more involved in contingency planning for extraordinary events. 9
  For example, of the 20 airports we reviewed, 8 have either refined or established
  policies to identify the resources and procedures needed to assist airlines in
  extended ground delays. These procedures include identifying remote areas for
  parking aircraft when gates are not available and methods to transport passengers
  from remote parking areas to the terminal.

In our view, all airports need to establish policies and procedures to proactively
monitor and minimize the impact of long, on-board delays. As passenger traffic
continues to grow, airports will need to become more responsive in dealing with
contingency planning for extraordinary flight disruptions, especially those airports
with limited airfield or gate capacity.
These initiatives have merit and, if properly executed, should help to improve airline
customer service. However, most of these will not be in place by summer 2008. The
Department should continue to make these efforts a priority to improve the
accountability, enforcement, and the protection afforded to air travelers. In the
meantime, the airlines and airports must follow through with their plans to reduce
delays and improve airline customer service.

Actions Are Needed in 2008 and 2009 To Mitigate Congestion
The long-term solution to customer dissatisfaction with air travel and reducing delays
depends largely on expanding capacity through the Next Generation Air Traffic
Management System (NextGen). Since this program is targeted for the 2025
timeframe, it will be important to keep efforts on track that can enhance capacity over
the next 5 years, such as new airport infrastructure and airspace redesign efforts.

It is important to note that ongoing and planned initiatives are not intended to
significantly boost capacity but rather to enhance efficiency and better manage delays.
While capping hourly operations at JFK and Newark may alleviate the
over-scheduling at peak times, history shows that caps do not necessarily translate
into a significant reduction in delays or an increase in airline on-time performance.

8
    The 20 airports selected for review are members of the Airports Council International-North America (ACI) and include
    Boston Logan International, Chicago O’Hare International, Dallas/Fort Worth International, Dallas Love Field, Denver
    International, Fort Lauderdale International, General Mitchell International, George H. Bush Intercontinental, Hartsfield-
    Jackson Atlanta International, Honolulu International, John F. Kennedy International, LaGuardia, Miami International,
    Minneapolis-St. Paul International, Newark Liberty International, Philadelphia International, Phoenix Sky Harbor
    International, Ronald Reagan Washington National, and Seattle-Tacoma International and Tampa International.
9
    An extraordinary event is any event that does not fall under an Emergency Operation category (e.g., crash, hijacking, or
    bomb threats) and disrupts optimized flight schedules and negatively impacts the normal flow of passengers through the
    air transportation system.


                                                                                                                            8
For example, flight caps at Chicago O’Hare have been in place since 2004, and
although delays have stabilized, they still occur at about 25 percent annually, with a
delay rate of 31 percent last summer.

With this in mind, we see several near-term actions that are needed to reduce
congestion and delays:

• DOT needs to negotiate a plan with the Department of Defense for use of special
  use airspace to open up additional lanes of traffic at specific chokepoints during
  summer 2008.
• FAA needs to continue to address concerns about controller productivity and excess
  spacing on final approach while training large numbers of new controllers.
• FAA needs to further expand the number of its Airspace Flow Program locations to
  help reduce delays. This program allows FAA to manage traffic fairly and
  efficiently by identifying only those flights scheduled to fly through storms and
  giving them estimated departure times. Airspace Flow Programs can also be used in
  conditions not related to weather, such as severe congestion near major cities.
• FAA needs to establish procedures for keeping capacity benchmarks for the major
  airports current. We recommended this in 2000, but FAA has not published updated
  capacity benchmarks since 2004. These benchmarks are critical to understanding
  airline scheduling practices and what relief can be expected from new procedures,
  technology, and new runways.
• The airlines should attempt to level out the arrival and departure banks at their
  large-hub airports to create more manageable flight operations at peak times at these
  airports. Airlines have successfully rescheduled at hub airports in the past, which
  reduced congestion and delays.
• The airports need to work jointly with FAA to improve procedures governing
  efficient use of taxi-ways and runways. Improvements to ground movement enable
  aircraft to taxi more quickly and safely between runways and terminals.
• BTS needs to perform an analysis of the causal flight delay and cancellation data
  submitted by the airlines. BTS should use the data to analyze locations of initial
  delays, underlying causes of system-wide effects, and the role of airports as net
  generators or absorbers of delays. This would provide the Congress, DOT, FAA,
  and other stakeholders a better understanding of the causes of delays and the
  solution sets needed to address them.

That concludes my statement, Mr. Chairman. The attachment to this testimony
contains further details on the issues I have outlined today. I would be pleased to
answer any questions that you or other Members of the Subcommittee may have.




                                                                                     9
                                                                                                      Attachment
                                                                                                     Page 1 of 28

Actions Underway To Address Flight Delays and Improve Airline
Customer Service
Flight delays continue as a major source of customer service dissatisfaction. The
severe delays and cancellations last year drew national attention and demonstrated
that airlines, airports, the Federal Aviation Administration (FAA), and the Department
(DOT) must work together to mitigate delays and cancellations and minimize the
impact on passengers. The extent to which delays will impact passengers in the
remainder of 2008 and beyond will depend on several key factors. These include
weather conditions, the impact of the economy on air travel demand, and capacity
management at already congested airports.

At the request of the Chairman of the House Subcommittee on Aviation, we have
completed an after-action analysis of last summer’s record-breaking flight delays,
their causes, and actions needed to mitigate recurrence of such events. We have also
assessed progress by DOT, FAA, airlines, and airports to improve airline customer
service.

Airlines Agreed To Execute a Voluntary Airline Customer Service
Commitment
Airline customer service first took center stage in January 1999, when hundreds of
passengers remained in planes on snowbound Detroit runways for up to 8 and a half
hours. After those events, both the
                                         Figure 1. Provisions of the Airline Customer
House and Senate considered                              Service Commitment
whether to enact a “passenger bill of • Offer the lowest fare available.
rights.”                                • Notify customers of known delays, cancellations, and diversions.
                                                         • Deliver baggage on time.
                                                         • Support an increase in the baggage liability limit.
Following congressional hearings on                      • Allow reservations to be held or cancelled.
these issues, the Air Transport                          • Provide prompt ticket refunds.
                                                         • Properly accommodate disabled and special-needs passengers.
Association (ATA) member-airlines                        • Meet customers’ essential needs during long, on-aircraft delays.
agreed to execute a voluntary Airline                    • Handle “bumped” passengers with fairness and consistency.
Customer Service Commitment 1 to                         • Disclose travel itinerary, cancellation policies, frequent flyer
                                                           rules, and aircraft configuration.
demonstrate their dedication to                          • Ensure good customer service from code-share partners.
improving air travel (see figure 1).                     • Be more responsive to customer complaints.
The Commitment provisions include                        Source: Airline Customer Service Commitment, June 1999
meeting passengers’ essential needs
during long, on-board delays.

Because aviation delays and cancellations continued to worsen, eventually reaching
their peak during the summer of 2000, Congress directed our office to evaluate the
effectiveness of the Commitment and the customer service plans of individual ATA

1
    ATA signed the Commitment on behalf of the then 14 ATA member airlines (Alaska Airlines, Aloha Airlines, American
    Airlines, American Trans Air, America West Airlines, Continental Airlines, Delta Air Lines, Hawaiian Airlines, Midwest
    Express Airlines, Northwest Airlines, Southwest Airlines, Trans World Airlines, United Airlines, and US Airways).
                                                                                             Attachment
                                                                                            Page 2 of 28

airlines. We issued our final report in February 2001. 2 Overall, we found that the
ATA airlines were making progress toward meeting the Commitment, which has
benefited air travelers in a number of important areas, such as offering the lowest fare
available, holding reservations, and responding in a timely manner to complaints.
However, these areas are not directly related to flight delays or cancellations—which
the Commitment did not directly address—and these areas are still the underlying
causes of deep-seated customer dissatisfaction.

Following the December 2004 holiday period, we issued a report 3 assessing severe air
travel disruptions in various parts of the Nation over a 7-day, holiday travel period.
We reported that, system-wide for the 7-day holiday travel period, 44.5 percent of
flights were delayed compared to 23.4 percent during the same period in 2003, and
6.2 percent of flights were canceled compared to 1.3 percent in 2003. The
contributing causes at airlines we reviewed included severe weather, failure of
computer systems used to schedule crews, and staffing shortfalls going into the
holiday travel period in two critical functions—fleet service employees and flight
attendants.

In November 2006, 4 at the request of the Chairman of this Subcommittee, we issued a
follow-up review of airlines’ efforts to fulfill the Airline Customer Service
Commitment. We found that the airlines needed to: (1) resume efforts to self audit
their customer service plans, (2) emphasize to their customer service employees the
importance of providing timely and adequate flight information, (3) train personnel
who assist passengers with disabilities, (4) provide transparent reporting on frequent
flyer award redemptions, and (5) improve the handling of bumped passengers. We
also recommended that the DOT’s Office of Aviation Enforcement and Proceedings
improve oversight of air traveler consumer protection requirements and that DOT
strengthen its oversight and enforcement of air traveler consumer protection rules.

In December 2006 and February 2007, severe weather crippled flight operations at
airports in Dallas, Texas, and the New York area—with many passengers delayed on
the tarmac for more than 5 hours. After the 2007 incidents, Secretary Peters requested
that we review these events and examine airlines’ customer service commitments,
contracts of carriage, and policies for on-board, extended ground delays. The
Secretary also requested that we recommend actions that the airlines, airports, and
Federal Government could take to prevent these situations in the future.




2
    OIG Report Number AV-2001-020, “Final Report on the Airline Customer Service Commitment, February 12, 2001.
    OIG reports and testimonies are available on our website: www.oig.dot.gov.
3
    OIG Report Number SC-2005-051, “Review of December 2004 Holiday Travel Disruptions,” February 28, 2005.
4
    OIG Report Number AV-2007-012, “Follow-Up Review: Performance of U.S. Airlines in Implementing Selected
    Provisions of the Airline Customer Service Commitment,” November 21, 2006.
                                                                                                                                                         Attachment
                                                                                                                                                        Page 3 of 28

Our report 5 recommended, among other things, that airlines define what constitutes an
“extended period of time” for meeting passengers’ essential needs and setting limits
for delay durations; establish specific targets for reducing chronically delayed or
cancelled flights; disclose on-time customer performance; and self-audit customer
service plans. We also recommended that DOT, FAA, airlines, and airports establish
a task force to develop and coordinate contingency plans to address lengthy delays.

Observations on Record-Breaking Flight Delays and Cancellations
in 2007
Last year, flight delays and cancellations exceeded the previous peak set in 2000 by
4 percent (2.4 million versus 2.3 million). During the early part of the decade, the
affect that key global events had on air travel temporarily suppressed delays; these
included a persistent slowdown in economic growth, the terrorist attacks of
September 11, 2001, and the war in the Middle East. However, we began to see rising
delays and cancellations again in 2003, and these numbers have continued to escalate
through 2007, reaching new highs of 29 percent. Likewise, the average length of
arrival delays also increased after an initial decline—from 51 minutes in 2000 to
56 minutes in 2007 (see figures 2 and 3).
    Figure 2. Percent of Flights Arriving                                                        Figure 3. Average Length of Arrival
      Late and Cancelled, 2000 to 2007                                                                   Delays, 2000 to 2007
                                   31%                                                                     60

                                                                                          29%
                                   29%   28%
                                                                                                                                                                 56
    Percent of Scheduled Flights




                                   27%                                             26%                     55
                                                                                                                                                          53
                                                                            25%                                                                    52
                                   25%          24%                  24%                                        51                          51
                                                                                                 Minutes




                                   23%                                                                     50          49
                                                                                                                                     48
                                   21%                        20%                                                             46
                                                       19%
                                   19%                                                                     45

                                   17%

                                   15%                                                                     40
                                         2000   2001   2002   2003   2004   2005   2006   2007                  2000   2001   2002   2003   2004   2005   2006   2007




Flight delays have increased nationwide since 2000, and some airports experienced
reductions in service coupled with significant increases in delays. This was evident
when comparing the arrival delay data from the summers of 2006 and 2007. For
example, although there was a 2-percent decrease in the number of flights to Dallas-
Fort Worth International Airport (DFW) during this time period, arrival delays
increased from 20.3 percent to 32.6 percent.




5
      OIG Report Number AV-2007-077, “Actions Needed To Minimize Long, On-Board Delays,” September 25, 2007.
                                                                                          Attachment
                                                                                         Page 4 of 28

Travel Between Airports Is Taking Longer Due to Growing Air and
Ground Delays
We examined the actual gate-to-gate times (i.e., the time it takes to travel between
2 airports) of 2,392 routes (i.e., city pairs) during the summer of 2000 through the
summer of 2007. We found that nearly 63 percent of the routes experienced increases
ranging from 1 minute to 30 minutes. Of these, 154 routes experienced increases of
10 minutes or more, affecting nearly 5 million passengers. We also found that over
half of the increase in gate-to-gate times took place in the air (54 percent), with the
remainder occurring on the ground during taxi-in (28 percent) and taxi-out
(18 percent) times.

Figure 4 lists those eight routes with the largest increases in gate-to-gate times of
20 to 30 minutes. It is important to note that six of these routes included John F.
Kennedy International Airport (JFK) as either the origin or destination airport.
Several factors influenced the increase in gate-to-gate times; these factors were
primarily driven by congestion-related system delays, both on ground and in the air.
We found that over 50 percent of the gate-to-gate increase occurred en route.

                 Figure 4. Routes With Largest Increases
               in Gate-to-Gate Times, Summer 2000 to 2007



              Honolulu, HI to Newark, NJ

                  JFK, NY to Seattle, WA

               Las Vegas, NV to JFK, NY                                              30 Minute
                                                                                   Increase over
               JFK, NY to Las Vegas, NV                                               7 Years

            JFK, NY to Salt Lake City, UT

                  Atlanta, GA to JFK, NY

                  JFK, NY to Orlando, FL

           Anchorage, AK to Houston, TX

        Medford, OR to San Francisco, CA


                                            0   5   10    15   20   25   30   35
                                                         Minutes
                                                                                                  Attachment
                                                                                                 Page 5 of 28

Rising Flight Delays Are Leading to More Long, On-Board Delays
Rising flight delays have also led to an increase in more on-board tarmac delays. In
2007, over 88,000 scheduled flights—affecting nearly 5.9 million passengers—
experienced taxi-in and taxi-out times of 1 hour to 5 hours or longer. This is an
increase of 69 percent (from 52,200 to 88,234) as compared to 2000 (see table 1). 6
                     Table 1. Number of Flights With Long, On-Board Tarmac
                           Delays of 1 Hour to 5+ Hours, 2000 and 2007
                                                                 %
                            Time Period     2000      2007     Change
                             1-2 Hrs.               44,701       78,903        76.51%
                             2-3 Hrs.                5,859        7,659        30.72%
                             3-4 Hrs.                1,255        1,377         9.72%
                             4-5 Hrs.                  303          243       -19.80%
                             5 or > Hrs.                  82           52     -36.59%
                             Total:                 52,200       88,234        69.03%
                          Source: OIG analysis of BTS data


We also found that long, on-board, tarmac delays increased by 25 percent between the
summers of 2006 and 2007, with even larger increases at some of the 15 airports we
examined. For example, long, on-board, tarmac delays increased from 198 to
544 (175 percent) at Denver International Airport, from 3,483 to 6,441 (85 percent) at
JFK, and from 815 to 1,489 (83 percent) at DFW.

Also of concern are the growing average taxi-out times at some of these airports. In
July 25, 2000, we first reported on the rise in average taxi-out times at the New York
area airports. In particular, we noted that if current projections held, average hourly
taxi-out times “…for these airports could well surpass 1 hour in the next 10 years…” 7
In the summer of 2007, this occurred for at least one of these airports. As figure 5
illustrates below, JFK’s average hourly taxi-out times exceeded 1 hour for a large
portion of the evening hours.




6
    The increase in the number of long on-board tarmac delays between 2000 and 2007 is partly due to changes in BTS
    reporting requirements, which resulted in many of the smaller carriers submitting their on-time performance data.
7
    OIG Report Number CR-2000-112 “Air Carrier Flight Delays and Cancellations,” July 25, 2000.
                                                                                                                                              Attachment
                                                                                                                                             Page 6 of 28

                                   Figure 5. JFK’s Average Hourly Taxi-Out Times
                                            Summer 2000, 2006, and 2007

                                  70
                                                                                                                                 2007
                                  60

                                  50
                                                                                                                            2006
                        Minutes   40

                                  30

                                  20                                                                                2000

                                  10

                                  0
                                       6am

                                             7am

                                                   8am

                                                         9am

                                                               10am

                                                                      11am

                                                                              12pm

                                                                                     1pm

                                                                                           2pm

                                                                                                 3pm

                                                                                                        4pm

                                                                                                              5pm

                                                                                                                     6pm

                                                                                                                           7pm

                                                                                                                                 8pm

                                                                                                                                       9pm
                                                                         Hourly Increments



Rising Flight Delays Are Also Leading to More Air Traveler Complaints
Against this backdrop of increasing delays and cancellations, consumer complaints
are also rising. Although customer complaints received by DOT in 2007 did not
reach the levels reported in 2000 (23,381 in 2000 versus 10,937 in 2007), complaints
in 2007 were at the highest levels since then—and nearly 70 percent higher than 2006
levels (6,436 to 10,937). In 2007, flight delays, cancellations, and misconnections
represented 37.4 percent of all complaints.

Over the last several years, DOT ranked flight problems as the number one air
traveler complaint, with baggage
                                     Figure 6. Air Travel Consumer Complaints, 2007
complaints and customer care 8
ranked as number two and
number three, respectively. As
                                                      Disability Other
shown in figure 6, data from 2007           Oversales
                                                        3.8%     7.0%
                                              3.8%
show that these three types of                                            Flight
                                         Refunds
complaints      accounted      for         6.8%                         Problems
68.2 percent of all complaints the  Reservations,                        37.4%
                                     Ticketing, &
Department received against U.S.       Boarding
airlines.                               10.3%

                                                                                                       Customer                         Baggage
                                                                                                         Care                            19.7%
                                                                                                        11.1%

                                                                                                                                                        Total
                                                                             Source: DOT's Air Travel Consumer Reports for 2007                         68.2%

8
    Complaints such as poor employee attitude, refusal to provide assistance, unsatisfactory seating, and unsatisfactory food
    service are categorized as customer care complaints.
                                                                          Attachment
                                                                         Page 7 of 28

Passengers’ Flight Experiences Are Further Complicated by Capacity
and Demand Matters
Air travelers’ dissatisfaction with flight problems, especially cancellations, is further
compounded by reduced capacity and increased demand, which leads to fuller flights.
Between 2000 and 2007, airlines have managed the growth in seat capacity to
constrain costs.

 • During that period, domestic available seat-miles rose by only 3.1 percent.
   Meanwhile, passenger ridership grew by a much larger 16.3 percent.

 • The percent of seats occupied, or load factor, increased from 71 percent in 2000 to
   80 percent in 2007—a rise of 9 points, with an unprecedented 86.1 percent in June
   2007.

 • Reduced capacity and higher load factors can also result in increased passenger
   inconvenience and dissatisfaction with customer service. With more seats filled,
   air carriers have fewer options to accommodate passengers from cancelled flights
   or those missing connections due to flight delays. This situation has been further
   compounded by the recent grounding of numerous passenger aircraft by
   American, Delta, Southwest, and United Airlines in the aftermath of growing
   maintenance concerns.

The following details our analysis, as requested by this Subcommittee, on the causes
of last summer’s severe flight delays and cancellations and actions needed to prevent
recurrence and minimize the impact of delays on passengers.

After-Action Analysis: Multiple Factors Contributed to the
Rise in Summer 2007 Delays
The record-breaking flight delays of 2007 were magnified last summer when flight
delays and cancellations hit all-time highs at major airports nationwide. When the
system is under stress it is usually affected by flight delays and cancellations—the
chief underlying causes of customer dissatisfaction.

We found that on-time flight performance during the summer of 2007 deteriorated
broadly from the already poor levels of 2006. Of the 55 airports tracked by FAA, the
number of delayed flights increased at 51 airports, and the average length of delays
increased at 52 airports. In contrast, the number of scheduled flights increased at only
33 of the airports. Table 2 compares increases in delays and cancellations in the
summers of 2006 and 2007.
                                                                                               Attachment
                                                                                              Page 8 of 28

                      Table 2. Increases in Flight Delays and Cancellations
                                           (Summer 2006 and Summer 2007)

            Notable Statistics                   Summer 2006               Summer 2007    Percent Change

   Scheduled Flights                                1,986,654                2,014,279        + 1%

   Delayed Flights                                  539,0000                  621,000         +15%

   Airports With Delays > 30%                            9                        26         + 189%

   Average Length of Arrival Delays                56 minutes                60 minutes       + 7%

   Cancelled Flights                                  37,396                   47,911         + 28%
* Comparison of June through August 2006 and 2007, as tracked by FAA at 55 airports.


The Number of Scheduled Flights Remained Relatively Flat Since 2006,
With a Few Notable Exceptions
On average, domestic passenger service (scheduled flights) remained steady over the
last year. At the country’s largest airports, scheduled departures in the summer of
2007 were up by only 1 percent over the summer of 2006, remaining relatively
unchanged at most of these airports. Notable exceptions occurred at JFK (up by
25 percent), San Diego International, Orlando International, San Francisco
International (each up by 6 percent), and Pittsburgh International Airports, where
scheduled departures declined by 11 percent.

While flight operations last summer were unchanged on a nationwide basis compared
to 2006, a closer examination shows that the national average masked increased flight
operations and delays at some airports. Conversely, delays were up at those airports
that had no increase in flight operations (see figure 7 below).

For example, at JFK, flight operations were up by 20 percent last summer (an
additional 9,700 scheduled flights) from the summer of 2006. Delays and
cancellations were also up for the same period by 36 percent. In contrast, scheduled
flights last summer at DFW were down by 1 percent from the summer of 2006, and
the airport still experienced increased delays and cancellations by nearly 60 percent.
                                                                                                                                                                                        Attachment
                                                                                                                                                                                       Page 9 of 28

  Figure 7. Changes in Arrival Demand and Flight Delays and Cancellations,
      Summer 2006 versus 2007 (35 Operational Evolution Plan Airports)
  60%

  50%

  40%

  30%

  20%

  10%

   0%

 -10%
                                                                     LAX




                                                                                       MIA




                                                                                                                                             MEM
                          MCO




                                                                                             MDW




                                                                                                                                                                                                         CVG
                                TPA




                                                         LAS




                                                                                                               PDX
                                                                                                                     DCA
                                                                                                                           SEA
                                                                                                                                 LGA




                                                                                                                                                                                             PHX
                                                                                                                                                                                                   MSP
                                      SAN




                                                               ATL




                                                                                                   IAD




                                                                                                                                                         IAH
                                                                                 BWI
                                            CLT
                                                   SFO




                                                                                                                                                                                                                     PIT
                                                                                                                                       DFW




                                                                                                                                                               DTW
        JFK




                                                                                                                                                   CLE




                                                                                                                                                                     BOS
              FLL




                                                                                                                                                                                                               STL
                    HNL




                                                                           DEN




                                                                                                         SLC




                                                                                                                                                                           ORD
                                                                                                                                                                                 EWR
                                                                                                                                                                                       PHL
                                                  Percent Change in Planned Arrivals                                       Percent Change in Affected Flights



Multiple Factors Contributed to Last Summer’s Flight Delays
Last summer’s delays were driven by multiple factors. Some of these were
uncontrollable by airlines (e.g., weather, air traffic control, and airport security).
Some problems also stemmed from factors that were controllable by airlines, such as
mechanical issues, crew availability, and holding for connections. Airlines also
reported delays caused by late arriving aircraft—when the previous flight operated
with the same aircraft arrives late, resulting in a ripple effect throughout the day.
Figure 8 depicts the reasons for
                                             Figure 8. Reasons for Flight Delays
delays as reported by the airlines.
                                                                                                                           (June through August 2007)
However, the causal categories
that     DOT’s     Bureau       of                                Carrier
                                                                  Caused
Transportation Statistics (BTS)                Late
                                                                   29%
                                              Arriving
uses to gather data from airlines             Aircraft
are too broad to accurately                    35%
portray delay types.          For          Other
example, late arriving aircraft             6%                        Weather
delays can be attributed to a                      Runway                23%
                                                            ATC
                                                   Closure
single factor, such as severe                         3%
                                                           Volume
                                                             4%
weather conditions, or to a
combination of factors, such as
aircraft maintenance issues or ground holds. Also, the root cause of “carrier-caused
delays” cannot be determined with any degree of precision because that information is
not collected.

BTS needs to analyze the “late arriving aircraft” category to identify the factors
driving these delays and allocate those factors across the other categories—carrier-
caused, weather, the National Airspace System, and airport security—to assess the
                                                                                                    Attachment
                                                                                                  Page 10 of 28

primary cause of delays. This type of analysis could also help to determine the
underlying causes of flight cancellations, but no agency currently conducts this
analysis. Until this step is taken, the root causes of delays cannot be determined with
any degree of precision.

Causal Factors Impacting 15 Major Airports With the Largest Increases
in Delays
To more closely examine the situation of delays and cancellations during the summer
of 2007, we reviewed 15 airports 9 that either experienced large deteriorations in on-
time performance measures between the summers of 2006 and 2007 or were among
the largest and most delayed airports in the country. Utilizing data reported by the
airlines,’ we identified causes of delays at these airports.

System-Wide Effect of Prior Delays: Delays are categorized as “late arriving
aircraft” when the previous flight operated with the same aircraft arrives late, delaying
that aircraft’s next flight. This categorization is non-specific because it does not
address the root causes of the late arriving aircraft. Late arriving flight delays can be
attributable to a single factor, such as severe weather conditions, or a combination of
factors, such aircraft maintenance issues, crew availability, or an air traffic control
ground hold. When an aircraft is delayed early in the day, often its remaining flights
scheduled in the day are all delayed.

Although carrier- and weather-caused delays were reported as the leading causes of
delayed flights, the system-wide effect of those delays is far reaching. This “ripple
effect” can then become the underlying cause of delays for other flights throughout
the system, which are not directly experiencing carrier- or weather-caused delays.
Late flights caused by previous delays in the system increased during the summer of
2007 to over one-third of all delayed flights. At the 15 airports reviewed, the “ripple
effect” delayed 64,000 arriving aircraft last summer.

Carrier-Caused Delays: Carrier-caused delays were reported as the number one
cause of delays at 5 of the 15 airports we reviewed last summer—Denver, Ft.
Lauderdale, Miami, Minneapolis, and Tampa. Details were not available to identify
the specific carrier issues, such as mechanical, aircraft servicing, or gate availability
problems. However, we did determine that shortages of cockpit crew members led to
more than 1,000 cancellations at Northwest Airlines last June.




9
    The 15 airports examined include Chicago O’Hare International, Dallas-Fort Worth International, Dallas Love Field,
    Denver International, Fort Lauderdale International, Hartsfield-Jackson Atlanta International, Houston George H. Bush
    Intercontinental, John F. Kennedy International, LaGuardia, Miami International, Minneapolis-St. Paul International,
    Newark Liberty International, Philadelphia International, Ronald Reagan Washington National, and Tampa International.
                                                                                                     Attachment
                                                                                                   Page 11 of 28

Weather Conditions: Weather is categorized as either severe or operable. We used
FAA data to compare the impact of weather on flight operations for the summers of
2006 and 2007 and found no appreciable change in the national weather between
these periods.

While 23 percent of arrival delays across the country were attributable to weather
during summer 2007, we found that weather had either no or minor impact on
operations for 52 of 90 days. Even on days when weather was reported as having no
or minor impact, airlines still could only achieve an average on-time performance of
74 percent. 10

On days with higher levels (over 10 percent) of severely or moderately affected
operations, arrival delays were only 30 percent greater than on days where weather
had no or minor impact. However, on days with severe and moderate weather impact,
average daily cancellations were twice as high as on days where weather had no or
minor impact. Some airports did see selected periods of worsened weather last
summer.

At the majority of the 15 airports we reviewed, the severity of weather impacting
flight operations did not decline appreciably between the summers of 2006 and 2007.
Nonetheless, airlines at those airports reported that weather was the leading, direct
cause of delays (32 percent). The apparent conflict is answered by considering that as
schedules increasingly exceed capacity, even in good weather, the slightest
degradation in weather conditions can disproportionately affect on-time performance.

While extreme weather conditions can significantly delay or prevent the operation of
a flight, extreme weather only accounted for 4 percent of delays in summer 2007 at
the 15 airports examined. However, we did find that extreme weather was a
significant cause of delays (1,300) and cancellations (1,100) at DFW in June 2007.

Nation-Wide Airspace Congestion: While many airports and their surrounding
airspace have adequate capacity, other locations reached their saturation points,
including air corridors connecting New York, Chicago, and Atlanta, accounting for
more than 50 percent of flight delays system-wide. The biggest airspace bottlenecks
this past summer were at the three major New York area airports and the surrounding
airspace, accounting for more than one-third of the flight delays system-wide.

Airline Scheduling and Airport Capacity: In 2007, airlines scheduled flights above
airport capacity to handle demand, and this contributed significantly to delays at
specific airports. Our analysis of the 15 airports examined showed that during
summer 2007, 6 had flights scheduled either at or over capacity at optimum weather
conditions. Combined, airlines scheduled flights above the average optimum capacity
10
     Consists of days where FAA reports of the combined “none” or “minor” weather impacts on flight operations equaled or
     exceeded 90 percent of each day’s operations for the group of 55 airports tracked by FAA.
                                                                          Attachment
                                                                        Page 12 of 28

at key airports such as JFK, LaGuardia, Newark Liberty, Philadelphia, Chicago
O’Hare, and Ronald Reagan Washington-National.

In summer 2007 at Chicago O’Hare, there was evidence of some peaking beyond
optimum weather conditions in the morning hours, and again, later in the afternoon.
The problems with over-scheduling are exacerbated when scheduled flights exceed
optimum airport capacity in poor weather conditions (i.e., when Instrument Flight
Rules take effect) throughout most of the day.

For example, in one 15-minute period at Chicago O’Hare International Airport, we
found that over 45 flights were scheduled to depart—nearly double the average
departure capacity of the airport at that time. There were 2 other 15-minute time
periods when 35 or more flights were scheduled to depart in one 15-minute period.

When airports are over-scheduled during peak hours, even small increases in flight
operations can have a disproportionately larger impact on flight delays, as was the
case in the New York region. For example, as flight operations expanded at JFK over
the last several years, delays increased at that airport and at LaGuardia and Newark.

Scheduled flights at JFK increased by 21,000 between the summers of 2006 and 2007,
and delays and cancellations at all three New York airports increased by 40,000 for
the same period. When weather or other disruptions at these airports do occur, they
can disproportionately impact on-time performance and cause longer recovery time
for airports.

Spacing of Aircraft on Final Approach: While problems are traceable to increased
operations, “excessive spacing” on final approach was also a factor in the New York
area. In its December 2007 report, the New York Aviation Rulemaking Committee
(ARC) reported that spacing between aircraft on final approach has been steadily
increasing beyond limits needed for safety, which contributed significantly to arrival
delays at the JFK, LaGuardia, and Newark airports.

Because of additional spacing, well-established, predictable airport acceptance rates
became unreliable. This resulted in increased probability of go-arounds, no-notice
holdings, increased vectoring, and sector overload. FAA recognizes the importance
of the problem but has not quantified the impact on last summer’s delays.

Outlook for Summer 2008: Near-Term Solutions Are Urgently Needed To
Mitigate Congestion
Whether or not delays this summer will reach the extreme levels of last year depends
on several factors. These include weather conditions, impacts of a softening economy
and higher fuel prices on the industry, major airlines’ efforts to reduce capacity (by
taking aircraft out of service), and the effectiveness of initiatives planned or underway
                                                                        Attachment
                                                                      Page 13 of 28

at already congested airports. We note that three airlines have ceased operations in
the last 2 weeks.

Our analysis shows that there are several airports to watch closely this summer
because of severe peaking during part of the day.

We examined the published airline schedules for the 15 airports reviewed to identify
where the potential exists for continued or new problems this summer. We compared
those schedules, in 15-minute increments, with the average capacity in optimum
weather conditions and under instrument flight conditions for each airport. If the
level of demand shown in the schedules and in the FAA-approved operations
materializes this summer, we see the potential for continued or increased delays at the
following airports:

 • Minneapolis-St. Paul: Unlike last year’s crew and runway problems, this
   summer’s schedules show new, severe peaking throughout the day, pointing to a
   potential repeat of high delay levels. For example, Northwest Airlines has
   56 departures scheduled in one 15-minute period—nearly 3 times the average
   departure capacity of the airport for that time.
 • Chicago O’Hare and New York LaGuardia: The summer 2008 schedules at
   these two airports show more peaking in excess of optimum capacity than last
   summer, indicating the potential for worsened delay conditions.

 • JFK and Newark Liberty: There is a potential for continued delay problems at
   these airports this summer. FAA’s caps on operations at these airports are below
   the level of operations that airlines wanted to operate this summer. However, we
   found that the FAA-approved operations for this summer represent an increase in
   flights of 8.9 percent at JFK and 4.6 percent at Newark Liberty over last year’s
   levels with more time-of-day peaking at both airports.

On a more positive note, published schedules for Ronald Reagan Washington
National Airport show less peaking above capacity for summer 2008, which could
help reduce delays at that airport.

Actions Needed in 2008 and 2009 To Mitigate Congestion
The long-term solution to customer dissatisfaction with air travel and reducing delays
depends largely on expanding capacity through the Next Generation Air Traffic
Management System (NextGen), which is targeted for 2025. Although FAA is
exploring ways to accelerate NextGen, much work remains to set realistic
expectations for when its capacity-enhancing capabilities can be delivered. Therefore,
it will be important to keep efforts on track that show promise for enhancing capacity
over the next 5 years. These efforts include new airport infrastructure projects at six
airports, new procedure development, and airspace redesign efforts.
                                                                          Attachment
                                                                        Page 14 of 28

Ongoing Efforts To Enhance Efficiency and Better Manage Delays
Since last spring, DOT, FAA, and various stakeholders have identified a wide range
of initiatives to reduce delays in the near-, mid- and long-term, particularly in the New
York area. Specifically, the ARC recommended over 77 initiatives, and FAA
organized these into 3 categories: 26 short-term initiatives that can be completed
within 12 months, 7 mid-term initiatives that can be completed by the end of fiscal
year 2009, and 44 long-term initiatives with completion dates still to be determined.

The 26 short-term initiatives are primarily procedural initiatives, such as re-routing
arrival and departure routes and reducing excessive spacing of aircraft on final
approach into the New York area airports. According to FAA, eight of the short-term
initiatives are already in place, such as utilizing multiple runways at JFK to improve
throughput. Overall, FAA plans to have all the short-term initiatives in place by year
end. FAA also hopes to have as many as these initiatives in place as possible by this
summer, as they may directly reduce delays.

The 51 mid- and long-term initiatives primarily consist of technological and capital
infrastructure efforts, such as installing the new Airport Surveillance Detection
Equipment-Model X (ASDE-X) ground surveillance systems at Newark and JFK,
improving taxiways at JFK, and adding NextGen automation systems.

DOT and FAA also proposed amendments to the Department’s policy regarding
airport rates and charges. The amendments are intended to allow operators at
congested airports flexibility when varying charges based on the time of day and air
traffic volume and when including the cost of projects designed to expand capacity in
the new landing fees.

It is important to note that ongoing and planned initiatives are not intended to
significantly boost capacity but rather to enhance efficiency and better manage delays.
While capping hourly operations at JFK and Newark may alleviate the
over-scheduling at peak times, history shows that caps do not necessarily translate
into a significant reduction in delays or an increase in airline on-time performance.
For example, flight caps at Chicago O’Hare have been in place since 2004, and
although delays have stabilized, they still occur at about 25 percent annually, with a
delay rate of 31 percent last summer.

Near-Term Solutions Are Urgently Needed
With this in mind, we see several near-term actions that are needed to reduce
congestion and delays. Specifically:

 • Making Better Use of “Special-Use Airspace:” FAA needs to negotiate a plan
   with the Department of Defense (DOD) for use of special-use airspace to open up
   additional lanes of traffic at specific chokepoints this summer.
                                                                      Attachment
                                                                    Page 15 of 28

 Before the Thanksgiving and Christmas holiday travel periods last year, DOT
 worked with DOD to open up special-use airspace along the east and west coasts
 to help mitigate delays during these heavy traffic periods. This effort proved to be
 effective in reducing delays. Special-use airspace is often inactive (i.e., not
 utilized for military purposes), thus offering potential options for more direct
 routing of civilian flights and additional paths to alleviate airspace congestion.
 Industry groups noted that “repeatable procedures” need to be developed to
 enhance coordination between military managers of special-use airspace on each
 coast and at FAA’s command center during periods of severe weather.

• Continuing to Address Concerns and Excessive Spacing on Final Approach
  and Enhancing Controller Productivity: FAA needs to continue to address
  concerns about controller productivity and excessive spacing on final approach as
  it trains large numbers of new controllers. Air Traffic Organization officials
  commented that concerns about excessive spacing extends beyond New York
  facilities. FAA developed a new tool to help monitor spacing and embarked upon
  educational efforts for controllers in both the en route and terminal lines of
  business. FAA is also developing new performance measures and policies to
  ensure efficiency without jeopardizing safety. We will continue to monitor these
  efforts.

• Expanding FAA’s Airspace Flow Program: FAA needs to further expand the
  number of its Airspace Flow Program locations—locations chosen for their
  combination of heavy traffic and frequent bad weather—to help reduce delays.
  This program gives airlines the option of flying longer routes to safely maneuver
  around storms and has successfully reduced delays. The program, which is
  managed by FAA’s command center, should also be utilized in heavy traffic
  conditions to space en route traffic to create gaps, thereby enabling
  ground-delayed traffic to depart more quickly.

• Updating Capacity Benchmarks: An important first step in addressing the delay
  problem in the 2000 timeframe was to develop a set of “capacity benchmarks” for
  the Nation’s top 30 airports. However, FAA has not published updated capacity
  benchmarks since 2004.

 As we have noted in the past, establishing benchmarks is critical to understanding
 airline scheduling practices and what relief can be expected from technology and
 new runways. At the very least, benchmarks provide a common framework for
 understanding what maximum arrival and departure rates can physically be
 handled at the busiest airports under good and poor weather conditions, by time of
 day. Given the projected demand, FAA needs to update the benchmarks.

• Keeping Planned Airport Infrastructure and Airspace Projects on Track:
  FAA reports that new runways provide the largest increases in capacity.
                                                                          Attachment
                                                                        Page 16 of 28

 Currently, runway projects at five airports (including projects at Washington
 Dulles and Chicago O’Hare) are planned to be built by 2012. History shows that
 airspace changes are vital for realizing benefits from new runway projects and can
 enhance the flow of air travel even without new airport infrastructure.

• Monitoring Airline Scheduling Practices: The airlines should make every
  attempt possible to level out the arrival and departure banks at their large-hub
  airports to create more manageable flight operations at peak times at these
  airports.

 Since the airline industry is opposed to the Department’s proposal to allow the
 Nation’s busiest airports to charge higher landing fees during peak travel times, as
 an alternative, the airlines should voluntarily reduce peak scheduling. Airlines
 have successfully conducted re-scheduling (i.e., de-peaking) at hub airports in the
 past. Following the summer of 2000, several major airlines voluntarily adjusted
 their flight schedules in early 2001, which helped to reduce congestion and delays
 at several major airports. It is time for the airlines to again consider adjusting their
 schedules to disperse flights from peak periods of demand to less congested
 periods.

 For the 15 airports reviewed, we examined the published flight schedules for this
 summer to identify where airlines have scheduled more flights than the airports are
 capable of handling without delays. Without further adjustments to arrival and
 departure levels during peak periods, we see the potential for ongoing delay
 problems for the summer of 2008 at the three New York airports—JFK, Newark
 Liberty, and LaGuardia—along with Chicago O’Hare and Minneapolis. Delays at
 any one of these airports will have a “ripple effect” across the National Airspace
 System.

 As we have noted in the past, BTS should perform an analysis of the Official
 Airline Guide schedule for all carriers (majors, nationals, regional, commuters,
 and small air carriers) to determine what, if any, changes in air carrier schedules
 have occurred and how they have contributed to the reduction in flight delays so
 far this year. This effort should be reconvened before this summer.

• Expanding the Parameters for Targeting Chronically Delayed or Cancelled
  Flights: In May 2007, DOT’s Office of Aviation Enforcement and Proceedings
  initiated an industry-wide investigation of airlines’ chronically delayed flights and
  took enforcement action against carriers for any flights that were chronically
  delayed. This is an important step forward.

 Currently, DOT considers a flight to be chronically delayed if it operates more
 than 15 minutes late, more than 70 percent of the time in any calendar quarter.
 However, these parameters need expanding. DOT’s current parameters identify
                                                                                                             Attachment
                                                                                                           Page 17 of 28

       less than 200 regularly scheduled flights 11 per quarter as chronically late and,
       therefore, do not accurately portray the magnitude of chronically delayed flights.

       We found that expanding the parameters to:

          - 30 minutes late or more, 50 percent or more of the time, results in a total of
            2,789 regularly scheduled flights that were chronically delayed.
          - 30 minutes late or more, 40 percent or more of the time, results in a total of
            5,369 regularly scheduled flights that were chronically delayed.

       Targeting so few flights when delays and related passenger complaints continue to
       rise does not send a message to the airlines that delayed flights, especially
       chronically delayed flights, will not be tolerated.

     • Improving Airside Procedures: The airports, in collaboration with FAA, need to
       work on procedural improvements, such as more efficient use of taxi-ways and
       runways. In its December 2007 “Flight Delay Task Force Report,” the Port
       Authority of New York and New Jersey identified “improvements to ground
       traffic movement” as one near-term recommendation to minimize delays at the
       JFK, LaGuardia, and Newark Liberty airports. Improvements to ground
       movement enable aircraft to taxi more quickly and safely between runways and
       terminals.

       FAA is exploring ways to accelerate deployment of ASDE-X technology at JFK to
       improve surface operations. However, we note that ASDE-X was designed as
       runway safety technology—not a surface management system and, therefore,
       software modifications will be required. Once experience is gained, FAA should
       consider expanding this capability to other locations.

     • Following Through on Conducting Incident Investigations:                    In our
       September 25, 2007, report, we recommended that DOT’s Office of General
       Counsel—in collaboration with FAA, airlines, and airports—review incidents
       involving long, on-board ground delays and their causes; identify trends and
       patterns of such events; and implement workable solutions for mitigating
       extraordinary flight disruptions. To address this recommendation, DOT assigned
       this responsibility to the national task force on contingency planning. Since the
       national task force’s initial meeting on February 26, 2008, there have been several
       missed opportunities to investigate incidents involving long, on-board delays.

     • Analyzing Causes of Delays and Cancellations: To accurately assess the
       primary cause of delays, BTS needs to analyze the “late arriving aircraft” category
       to identify the driving factors of delays and allocate those factors across the other

11
     A regularly scheduled flight is a flight segment representing a city pair (e.g., Chicago to Miami).
                                                                                                   Attachment
                                                                                                 Page 18 of 28

       categories—carrier-caused, weather conditions, the National Airspace System, and
       security. This type of analysis should also be done for flight cancellations, but no
       agency currently conducts this analysis. Until this step is completed, the root
       causes of delays cannot be determined with any degree of precision.

The record-breaking flight delays and cancellations of last summer underscore the
degree to which passengers are inconvenienced when traveling by air. The traveling
public knows the aviation system needs improvement, and actions are needed by the
airlines, airports, FAA and DOT if consumer confidence is to be restored.

As we testified in September 2007, 12 DOT should take a more active role in
overseeing customer service issues, and there are actions that it, the airlines, and
airports can undertake immediately to do so. Many of the actions are not new and
date back to recommendations in our 2001 report, which were directed at delay and
cancellation problems—key drivers of customer dissatisfaction with airlines. The
following is an assessment of DOT’s, FAA’s, the airlines’, and airports’ progress in
implementing the actions outlined in our September 2007 testimony before the House
Subcommittee on Aviation.

DOT, the Airlines, and Airports Have Progressed Toward
Improved Customer Service, but Much Work Remains
Since we last testified, DOT, the airlines, and airports have begun initiatives to
address the action items we
                                    Figure 9. Actions Outlined in September 2007 To
outlined at that hearing.        Improve Airline Customer Service and Minimize Long,
Specifically, these actions are                         On-Board Delays
in response to outstanding We recommended that:
recommendations to improve • DOT conduct incident investigations involving long, on-board delays.
airline customer service and • DOT’s      Enforcement Office oversee the airlines’ policies for dealing
                                  with long, on-board delays.
minimize      long,    on-board • BTS implement the necessary changes in the airlines’ on-time
delays (see figure 9).            performance reporting to capture all long, on-board delays.
                                              • Airlines clarify terms in their contingency plans.
                                              • Airlines establish specific targets for reducing chronically delayed or
Departmental Efforts                            cancelled flights.
In our September 2007 report,                 • Airlines disclose on-time flight performance.
                                              • Airlines resume efforts to self-audit customer service plans.
we made a series of                           • Airlines reconvene the contingency planning task force.
recommendations       to    the               • Airports implement processes for monitoring lengthy delays.
Secretary of Transportation to
improve the accountability, enforcement, and protection afforded to air travelers. One
such recommendation requires each certificated and commuter airline that provides
domestic scheduled service using any aircraft with more than 30 passenger seats to:
(a) define what constitutes an extended period of time, (b) set a time-limit on delay

12
     OIG Testimony Number CC-2007-099 “Actions Needed To Improve Airline Customer Service and Minimize Long, On-
     Board Delays,” September 26, 2007.
                                                                                                            Attachment
                                                                                                          Page 19 of 28

durations before deplaning passengers, and (c) incorporate such policies in its contract
of carriage 13 and post on its Internet site.

The Department has begun addressing our recommendations by using its regulatory
authority to issue rulemakings and to establish Federal advisory committees.
However, most of the initiatives the Department is proposing will not be in place by
this summer.

Actions Initiated Under Rulemaking
DOT has initiated actions to address each recommendation (10 recommendations in
total) using two rulemakings as the primary vehicle to enhance airline passenger
protections.

BTS Rulemaking Issued in November 2007: BTS issued a rulemaking proposing to
collect additional data elements when flights are cancelled, diverted, or returned to the
gate. The additional proposed data elements would fill in data gaps, thereby
providing a more accurate portrayal of on-ground delays. BTS expects to issue its final
rule in August 2008, with October 1, 2008, as the effective date of the airlines’ new
reporting requirements.

Delay statistics that airlines are reporting to BTS do not accurately portray the
magnitude of long, on-board delays because (1) if a flight taxies out, sits for hours,
and then taxies back in and is cancelled, the delay is not recorded and (2) if a flight is
diverted to an airport other than the destination airport and sits on the tarmac for an
extended period of time, the flight is not recorded in delay statistics.

Also, airlines are not required to report gate departure times when a flight is later
cancelled. So, there is no record of how long a flight remains at the gate or sits on the
tarmac before it is cancelled. This is true for flights with lengthy delays at the
originating airport that are later cancelled. This was the case with some JetBlue
Airways flights at JFK on February 14, 2007. On that day, JetBlue’s JFK operations
suffered when severe weather hit the northeastern United States, leading to
355 cancellations; 6 diversions; and 26 on-board delays exceeding 4 hours on flights
that were later cancelled.

It is also true for flights with lengthy delays at airports where flights were diverted
and then cancelled, such as some of the American Airlines flights diverted to Austin-
Bergstrom International Airport on December 29, 2006. On that day, American’s
operations at DFW were severely affected by unprecedented weather; this led to
654 flight cancellations, 124 diversions, and 44 on-board delays exceeding 4 hours.


13
     A contract of carriage is the document air carriers use to specify legal obligations to passengers. Each air carrier must
     provide a copy of its contract of carriage free of charge upon request. The contract of carriage is also available for public
     inspection at airports and ticket offices.
                                                                        Attachment
                                                                      Page 20 of 28

The diversions to Austin-Bergstrom generated substantial interest because some of the
lengthiest on-board delays occurred at that airport—in one case for over 9 hours.

DOT Rulemaking Issued in November 2007: DOT issued a rulemaking seeking
comments on whether the Department should adopt a rule to enhance airline
passenger protections that would require airlines to:

 • Adopt contingency plans for lengthy tarmac delays and incorporate them in their
   contracts of carriage. Each plan would require, among other things, the
   maximum tarmac delay that the airline will permit; the amount of time on the
   tarmac that triggers the plan’s execution; a plan to meet passengers’ essential
   needs, such as food, water, and lavatory facilities; and assurance that the plan has
   been coordinated with the airport operator.
 • Respond to consumer problems. Each airline would be required to designate a
   consumer advocate who resides at the airline’s system operations center and at
   each airport dispatch. The consumer advocate would be part of the team that is
   responsible for monitoring the impact of flight delays, cancellations, and long, on-
   board delays and would provide input on decisions concerning which flights are
   cancelled and which flights are subject to long, on-board delays. The advocate
   would also be required to respond to each passenger complaint within 30 days.
 • Publish delay data on their Internet sites. Each airline would be required to report
   its prior month’s on-time performance to include the percentage of on-time
   arrivals and arrivals more than 30 minutes late, flights that were late more than 50
   percent of the time, and percentage of cancellations. Currently, the airlines are
   required to disclose on-time performance only upon request from customers. To
   date, only 5 of 12 ATA airlines report on-time performance on their Internet sites.
   Given the ease of availability of this information to the airlines, we continue to
   recommend that the airlines post on-time flight performance information on their
   Internet sites and make it available through their telephone reservation systems
   and without prompting.
 • Publish complaint data. Each airline would be required to disclose on its Internet
   sites the number of complaints received regarding tarmac delays, missed
   connections, and failures to meet passengers’ essential needs affected by delayed
   or cancelled flights.
 • Report on-time performance for international flights. Currently, U.S. airlines that
   account for at least 1 percent of the domestic scheduled passenger revenue are
   only required to report on-time performance for domestic flights. This provision
   would require those airlines to report on-time performance for international flights
   to and from the United States. This provision would also require the largest
   foreign airlines to report on-time performance for their flights to and from the
   United States.
                                                                                                          Attachment
                                                                                                        Page 21 of 28

     • Audit their compliance with their customer service plans. This provision dates
       back to a recommendation we made in our 2001 report. The ATA airlines agreed
       to establish quality assurance and performance measurement systems and conduct
       internal audits to measure compliance with the Commitment provisions and
       customer service plans. Only a few ATA airlines have them in place today.

     The rule also would declare the operation of flights that remain chronically delayed
     to be an unfair and deceptive practice and unfair method of competition, as we
     recommended in our November 2006 report. 14 In that report, we noted that another
     option for curbing congestion is for DOT to investigate unrealistic scheduling of
     flights by any air carrier. These flights are referred to as “chronically delayed.”
     When we issued our report, we reported that for 2005, there were 15,640 unique
     flight numbers (215,016 individual flights) that were chronically delayed or
     cancelled, affecting an estimated 16 million passengers. For 2007, several of those
     numbers increased significantly—there were 10,935 unique flight numbers
     (291,547 individual flights) that were chronically delayed or cancelled, affecting an
     estimated 19.4 million passengers.

     DOT’s view at that time was that the flights that are chronically delayed are mostly
     due to reasons beyond the air carriers’ control—mostly weather but also congestion.
     As a result, in DOT’s view, a successful enforcement action for unrealistic
     scheduling would be difficult at best. Nevertheless, we recommended that DOT
     revisit its current position on chronic delays and cancellations and take enforcement
     actions against air carriers that consistently advertise flight schedules that are
     unrealistic, regardless of the reason. In May 2007, DOT’s Office of Aviation
     Enforcement and Proceedings initiated an industry-wide investigation of airlines’
     chronically delayed flights and took enforcement action against carriers for any
     flight that was “chronically delayed”15 and was not corrected by the second calendar
     quarter thereafter.

Actions Initiated Under the Federal Advisory Committee Act
As we recommended, DOT established a national task force of individuals who
represent a cross-section of government agencies, airlines, airports, consumer groups
to develop model contingency plans for minimizing the impact of long, on-board
delays.




14
     OIG Report Number AV-2007-012, “Follow-Up Review: Performance of U.S. Airlines in Implementing Selected
     Provisions of the Airline Customer Service Commitment,” November 21, 2006.
15
     DOT defines a chronically delayed flight as a flight that operates at least 45 times over calendar quarter and is late more
     than 70 percent of the time by 15 minutes or more.
                                                                          Attachment
                                                                        Page 22 of 28

The task force will undertake the following initiatives:

 • Develop model contingency plans for minimizing the impact of lengthy tarmac
   delays.
 • Be responsible for reviewing incidents involving long, on-board delays and their
   causes; identify trends and patterns of such events; and recommend workable
   solutions for mitigating the passenger impact of extraordinary flight disruptions.
 • Review existing airline and airport contingency plans identifying best practices for
   extended tarmac delays.
 • Report the results of its efforts and a description of the model contingency plan
   developed to the Secretary.

The task force held a kick-off meeting on February 26, 2008, with a second meeting
planned for April 29, 2008. At the February 26 meeting, Office of Inspector General
staff presented their perspectives on actions needed to minimize long, on-board
delays. Two working groups were established—one on passenger needs and the other
on delay causes—with reports to be presented at the April 29 meeting.

The Department has moved quickly to address our recommendations. While it is too
soon to evaluate the effectiveness of these ongoing initiatives, they all have merit and,
if properly executed, should help in mitigating long, on-board delays. However, most
of the initiatives will not be in place by this summer. Also, recommendations from
the national task force to the Secretary are scheduled for submission in August 2008,
when summer air travel is in decline. Therefore, the airlines and airports must follow
through on their plans to reduce delays and improve airline customer service—
without waiting for the outcome of the rulemakings or the national taskforce’s
recommendations.

The Airlines Have Begun Their Own Customer Service Initiatives, but
Further Actions Are Needed
At the September 2007 hearing, we testified that many of the actions to improve
airline customer service and minimize long, on-board delays are not new and date
back to recommendations in our 2001 report, which were directed at delay and
cancellation problems—key drivers of customer dissatisfaction with airlines. As we
emphasized at that hearing—the key for each of these actions is execution. We
conducted a follow-up examination on progress made to implement these actions. We
found, for the most part, that the airlines under review have begun initiatives to
improve air travelers’ experiences, but more action is needed. The following
summarizes the Air Transport Association (ATA) member-airlines’ progress to date
in response to our recommendations.
                                                                                               Attachment
                                                                                             Page 23 of 28

Clarify Terms in Airlines’ Contingency Plans.                                In examining the ATA
member-airlines’ contingency plans, we found that:

• Eleven of 12 ATA member airlines have defined “an extended period of time” for
  meeting passengers’ essential needs during long, on-board delays. Two airlines
  consider this internal policy not publicly available, three have incorporated it into
  their customer service plans and placed it on their Internet sites, and six have
  incorporated it into their contracts of carriage—only then does it become legally
  enforceable by the customer against the airline.
 The trigger thresholds for meeting passengers’ essential needs vary from a half-hour
 to 2 hours on arrival and from 1.5 hours to 3 hours on departure. We think it is
 unlikely that passengers’ definition of an extended period of will vary depending
 upon which airline they are flying. We are still of the view that a consistent policy
 across the airlines would be helpful to passengers.
• Eleven of the 12 ATA airlines have now set a time limit on delay durations before
  deplaning passengers or elevating the situation to senior operational managers for
  resolution. Three airlines consider this as an internal policy, only one has
  incorporated it into its customer service plan, and seven have incorporated this into
  their contracts of carriage. The trigger thresholds for deplaning passengers vary
  from a half-hour to 5 hours on arrival and 1 hour to 5 hours on departure (see table
  3).
                        Table 3. Selected Airlines’ Terms and Conditions
                              for Handling Long, On-Board Delays
             Airline       Definition of Extended Period of Time   Time to Deplane Stated in Customer Service
                             Stated in Customer Service Plans       Plans and/or Contracts of Carriage and/or
                               and/or Contracts of Carriage                    by Internal Policy (I)
    Alaska                90 Minutes                               2 Hours for Arrivals
    Aloha                 None                                     None
    American              2 Hours                                  4 Hours(I)
    Continental           2 Hours                                  2 Hours for Arrivals
                                                                   4 Hours for Departures
    Delta                 1 Hour for Arrivals                      At 1 Hour Elevate Up* (Arrivals)
                          2 Hours for Departures                   At 2 Hours Elevate Up* (Departures)
    Hawaiian              2 Hours                                  2 Hours
    JetBlue               1 Hour                                   5 Hours
    Midwest               30 Minutes for Arrivals                  30 Minutes for Arrivals (I)
                          1 Hour for Departures                    1 Hour for Departures (I)
    Northwest             1 Hour for Arrivals                      1 Hour for Arrivals (I)
                          3 Hours for Departures                   3 Hours for Departures (I)
    Southwest             2 Hours                                  2 Hours
    United                2 Hours                                  90 Minutes for Arrivals
                                                                   4 hours for Departures
    US Airways            1 Hour                                   At 3 Hours Elevate Up*

   * Point in time when situation is elevated to senior management for a decisive action.
                                                                       Attachment
                                                                     Page 24 of 28

Establish Specific Targets for Reducing Chronically Delayed or Cancelled
Flights. Between 2000 and 2007, the number of chronically delayed flights has
increased nearly 27 percent (from 229,961 to 291,547). Likewise, the number of
unique flight numbers that are chronically delayed month after month has also
increased, with those delayed 6 months or longer increasing nearly 57 percent (380 to
595) over this time period. Overall, 19.4 million passengers were impacted by
chronically delayed flights in 2007.

In 2001, and in subsequent reports, we recommended that the airlines establish
specific targets for reducing chronically delayed or cancelled flights. To date, we
found:

 • Nine of the 12 airlines monitor chronically delayed or cancelled flights based on
   BTS criteria.
 • Four of the 12 airlines have established a “zero tolerance” target for reducing
   chronically delayed and cancelled flights.
 • Only three of the four airlines publish any information about chronically delayed
   flights and how they handle them in their customer service plans—a lost
   opportunity to educate the public on the efforts the airlines are taking to reduce
   delays.
The following examples are ways in which airlines can reduce chronically delayed
flights.

 • Increasing the block times (often referred to as “padding the schedule”) of the
   flight. This is generally not a good idea for economic reasons—increased block
   time can result in fewer flights segments for each aircraft for each operating day
   resulting in lost revenue.
 • Pairing entire flight crews together throughout a day to minimize potential
   disruptions generated by separating aircraft and crew.
 • Working with FAA to find alternative departure routings especially for flights
   departing from the New York area.

Disclose On-Time Flight Performance at Time of Booking Without Prompting
and On Internet Sites. None of the 12 ATA airlines have completely satisfied our
recommendation to disclose on-time flight performance at time of booking without
prompting and post it on their Internet sites. We found that:

• Nine of the 12 airlines will disclose the prior month’s on-time flight performance
  upon request only. We tested five of the airlines’ compliance with providing the
  performance data upon request through their reservations agents and they were in
  compliance.
                                                                            Attachment
                                                                          Page 25 of 28

• Only 5 of 12 ATA airlines are placing the flights’ prior month, on-time performance
  on their Internet sites. In this case, several airlines are awaiting the final outcome of
  the Department’s proposed rulemaking on this matter.

Resume Efforts To Self-Audit Customer Service Plans. We recommended in
2001, and in subsequent reports, that the airlines establish quality assurance and
performance measurement systems and conduct internal audits to measure compliance
with the Commitment provisions and customer service plans. To date, only 5 of the
12 airlines are still performing self-audits of the Commitment’s provisions, while
others have a self-audit system that does not include all the Commitment provisions.
These airlines may be awaiting the outcome of the Department’s rule on this matter.
In its rule, the Department proposes to require that airlines establish quality assurance
and performance measure systems and conduct internal audits to measure compliance
with the Commitment provisions. It is our view that there is nothing in the
Department’s rule to prevent the airlines from self-policing themselves, just as they
had promised to do back in 2001.

While some airlines are making a concerted effort to improve the passenger
experience, others are not willing to formally promise all their Commitment
provisions and associated customer service policies in their contracts of carriage or
customer service plans. It is still our opinion that the airlines need to publish their
promises to customers in writing regarding long, on-board delays. This would hold
the airlines to a higher standard and clearly demonstrate that they take customer
service matters very seriously.

Airports Are More Involved in Contingency Planning for Extraordinary
Events, but Further Action Is Needed
Since we last testified, airports have moved out with initiatives to mitigate long,
on-board delays and minimize passenger discomfort, but more is still needed.
Airports have taken several actions since September 2007 to address these matters,
such as convening a task force to address flight delays and customer service issues.
However, individual airports can do more to enhance passengers’ experiences,
especially during extraordinary flight disruptions.

Convening a Task Force and Workshops Among Stakeholders To Address
Flight Delays and Customer Service Issues in the New York Area
In our prior testimony, we reported that the Port Authority of New York and New
Jersey convened a task force in July 2007 composed of Port Authority staff, airline
executives, Federal, state, and city government officials, and other industry
stakeholders in the region’s aviation system to focus on the burgeoning problem of
flight delays, including initiatives to improve the passenger experience when delays
occur.
                                                                         Attachment
                                                                       Page 26 of 28

The task force issued its report on December 6, 2007, identifying a total of
96 recommendations to enhance capacity, reduce delays, and improve customer
service for the region’s three major airports—JFK, LaGuardia, and Newark Liberty.
Nineteen of the recommendations address improving customer service through better
communication with passengers and coordination among airlines, airports, and the
various service providers.

Key customer service recommendations include:

 • Establishing a baseline maximum time for a plane to sit on tarmac before the Port
   Authority must be notified to prepare support services.
 • Creating an “early warning” system to inform passengers of delay before arrival at
   the airport terminal.
 • Providing delayed passengers with information on alternate flights and
   transportation to allow sooner arrival at their final destination.

The task force intends to meet in early this summer to assess the implementation
status of the recommendations in its report.

Convening Workshops Composed of Vested Stakeholders To Address
Contingency Planning for Extraordinary Flight Disruptions
Two workshops were convened—one sponsored by DFW and the other sponsored by
Airports Council International-North America (ACI)—to identify best practices for
contingency planning during extraordinary flight disruptions. A cross-section of
airports, airlines, government agencies, and industry vendors attended the workshops.
Highlights from the workshop action items include the following:

 • Identified and explored the causes of the public’s concern that airports and airlines
   lack awareness of or fail to adequately prepare for Irregular Operations as they
   continue to take proactive measures to address customer needs.
 • Acknowledged that better communication, collaboration, and coordination
   between all stakeholders (the airlines, airports, the Transportation Security
   Administration and FAA)—before and during an event—will dramatically
   improve the level of customer service to passengers.

Breakout sessions were held to, among other things, identify a “tool box” of
templates, best practices, and communication plans for dealing with flight disruptions
and passenger care.

Monitoring Tarmac Delays and Assisting Airlines During Flight Disruptions
In our last testimony, it was our view then, as it is now, that large- and medium-hub
airport operators should establish and implement a process for monitoring and
                                                                          Attachment
                                                                        Page 27 of 28

mitigating long, on-board delays that involves contacting the airline to request a plan
of action after an aircraft has remained for 2 hours on the tarmac. Absent any airline
policy, the airport operators should work with airlines to establish policies for
deplaning passengers and ensure that these policies are adhered to.

In support of our view, on January 7, 2008, Secretary Peters, sent letters to the
Presidents of ACI and the American Association of Airport Executives “urging them
and their members to take immediate steps to address our recommendation if they
have not already done so.”
Since then, we found that the ACI member-airports selected for review are, to some
degree, getting more involved in contingency planning for extraordinary events. For
example, of the 20 airports we reviewed:
 - Four currently do not have a process for monitoring extended ground delays.
 - Only three have established policies and procedures to proactively monitor and
   minimize the impact of long, on-board delays that involves contacting the airline
   to request a plan of action after an aircraft has remained on the tarmac for 1 hour
   to 2 hours.
 - The remaining 13 monitor delays as part of their normal operations but do not
   have formalized, written policies outlining the monitoring procedures and/or
   timeframes for taking action.

Also, 8 of the 20 airports have either refined their existing policies or established new
policies to identify the resources and procedures needed to, upon request, assist
airlines in extended ground delays, such as identifying remote areas for parking
aircraft when gates are not available and methods to transport passengers from remote
parking areas to the terminal.

Investigating Incidents of Extended Delays To Identify Causal Factors and
Mitigate Future Occurrences
Following an extraordinary flight disruption event, airports conduct post-incident
investigations on what contingency planning procedures work well during the event,
and what did not. Of the 20 airports we reviewed:

 • Fourteen conduct investigations of long, on-board flight delays.
 • Twelve of the 14 airports’ investigations include a debriefing after the event with
   all involved stakeholders.
 • Six either do not or rarely investigate long, on-board flight delays. This is
   sometimes contingent on whether the airport is the possible cause of the delays.
   Four of those six airports do not consider it necessary to investigate long, on-board
   flight delays because they seldom occur at their airports.
                                                                         Attachment
                                                                       Page 28 of 28

To minimize or mitigate future occurrences, airports have implemented solutions,
ranging from continuous monitoring of a long, on-board flight delay until resolved to
purchasing specialized equipment to better manage and prevent long, on-board flight
delays. The criteria to trigger an airport investigation vary among the airports and can
range from a 2- to 4-hour delay or the mere occurrence of any irregular or
extraordinary event. Airports indicated that weather and flight diversions were the
primary causes of long, on-board flight delays.

It is encouraging to see that some airport operators are becoming more involved in
mitigating long, on-board delays. However, as passenger traffic continues to grow,
airports will need to become more proactive in dealing with long, on-board delays,
especially those airports with limited airfield or gate capacity.
The following pages contain textual versions of the graphs and charts contained in
this document. These pages were not a part of the original document but have been
added here to accommodate assistive technology.
          Status Report on Actions Underway To Address Flight Delays
                     and Improve Airline Customer Service

                         Section 508 Compliant Presentation

Figure 2. Percent of Flights Arriving Late and Cancelled for Years 2000 to 2007

  Years        Percent of Scheduled Flights

   2000      28 percent were late or cancelled.
   2001      24 percent were late or cancelled.
   2002      19 percent were late or cancelled.
   2003      20 percent were late or cancelled.
   2004      24 percent were late or cancelled.
   2005      25 percent were late or cancelled.
   2006      26 percent were late or cancelled.
   2007      29 percent were late or cancelled.


Figure 3. Average Length of Arrival Delays for Years 2000 to 2007

  Years     Average Length of Arrival Delays
  2000                51 minutes
  2001                49 minutes
  2002                46 minutes
  2003                48 minutes
  2004                51 minutes
  2005                52 minutes
  2006                53 minutes
  2007                56 minutes


Figure 4. Routes With Largest Increases in Gate-to-Gate Times, Summer 2000
to 2007

   •   Honolulu, Hawaii to Newark, New Jersey: 30.01 minutes (Note: 30 minute increase
       over 7 years)
   •   John F. Kennedy Airport, New York to Seattle, Washington: 24.17 minutes
   •   Las Vegas, Nevada to John F. Kennedy Airport, New York: 23.44 minutes
   •   John F. Kennedy Airport, New York to Las Vegas, Nevada: 22.27 minutes
   •   John F. Kennedy Airport, New York to Salt Lake City, Utah: 22.09 minutes
   •   Atlanta, Georgia to John F. Kennedy Airport, New York: 21.91 minutes
   •   John F. Kennedy Airport, New York to Orlando, Florida: 21.65 minutes
   •   Anchorage, Alaska to Houston, Texas: 21.28 minutes
   •   Medford, Oregon to San Francisco, California: 20.91 minutes

Table 1. Number of Flights With Long, On-Board Tarmac Delays of 1 Hour to 5
Hours or Longer, Years 2000 and 2007

 • In 2000, there were 44,701 flights with on-board, tarmac delays of 1 to 2 hours. In 2007,
   there were 78,903. This represents a 76.51 percent increase.

 • In 2000, there were 5,859 flights with on-board, tarmac delays of 2 to 3 hours. In 2007,
   there were 7,659. This represents a 30.72 percent increase.

 • In 2000, there were 1,255 flights with on-board, tarmac delays of 3 to 4 hours. In 2007,
   there were 1,377. This represents a 9.72 percent increase.

 • In 2000, there were 303 flights with on-board, tarmac delays of 4 to 5 hours. In 2007,
   there were 243. This represents a 19.80 percent decrease.

 • In 2000, there were 82 flights with on-board, tarmac delays of 5 hours or longer. In 2007,
   there were 52. This represents a 36.59 percent decrease.

The total number of flights with long, on-board tarmac delays of 1 hour to 5 hours or longer
for 2000 was 52,200. The total number of flights with long, on-board tarmac delays of 1 hour
to 5 hours or longer for 2007 was 88,234. This represents a 69.03 percent increase.

Source: OIG analysis based on Bureau of Transportation Statistics data

Table 2. Increases in Flight Delays and Cancellations, Summer 2006 and Summer 2007

         Notable Statistics           Summer 2006        Summer 2007           Percent Change

  Number of Scheduled Flights          1,986,654 in       2,014,279 in      Represents a 1-percent
                                      summer 2006        summer 20007             increase

  Number of Delayed Flights            539,0000 in         621,000 in      Represents a 15-percent
                                      summer 2006        summer 20007             increase

  Number of Airports With Delays     9 in summer 2006    26 in summer      Represents a 189-percent
  Flights greater than 30 percent                            20007                increase

  Average Length of Arrival Delays    56 minutes in       60 minutes in     Represents a 7-pecent
                                      summer 2006        summer 20007             increase

  Number of Cancelled Flights        37,396 in summer   47,911 in summer   Represents a 28-percent
                                           2006              20007                increase
    Figure 5. JFK’s Average Hourly Taxi-Out Times Summer 2000, 2006, and 2007

       Hour Increments                  2000                   2006               2007 (Minutes)
                                      (Minutes)              (Minutes)
Average taxi-out time at 6am     21.5 minutes in 2000   21.7 minutes in 2006    25.4 minutes in 2007
Average taxi-out time at 7am     22.7 minutes in 2000   25.4 minutes in 2006    33.1 minutes in 2007
Average taxi-out time at 8am     27.2 minutes in 2000   31.5 minutes in 2006    39.4 minutes in 2007
Average taxi-out time at 9am     26.7 minutes in 2000   34.2 minutes in 2006    40.9 minutes in 2007
Average taxi-out time at 10am    23.5 minutes in 2000   23.5 minutes in 2006    32.7 minutes in 2007
Average taxi-out time at 11am    21.1 minutes in 2000   21.8 minutes in 2006    32.0 minutes in 2007
Average taxi-out time at 12pm    23.8 minutes in 2000   23.4 minutes in 2006    29.3 minutes in 2007
Average taxi-out time at 1pm     19.8 minutes in 2000   25.1 minutes in 2006    28.9 minutes in 2007
Average taxi-out time at 2pm     33.3 minutes in 2000   25.8 minutes in 2006    31.1 minutes in 2007
Average taxi-out time at 3pm     36.5 minutes in 2000   30.7 minutes in 2006    36.1 minutes in 2007
Average taxi-out time at 4pm     35.2 minutes in 2000   35.5 minutes in 2006    52.9 minutes in 2007
Average taxi-out time at 5pm     47.0 minutes in 2000   49.4 minutes in 2006    57.8 minutes in 2007
Average taxi-out time at 6pm     50.9 minutes in 2000   64.4 minutes in 2006    63.3 minutes in 2007
Average taxi-out time at 7pm     41.1 minutes in 2000   56.8 minutes in 2006    63.7 minutes in 2007
Average taxi-out time at 8pm     39.2 minutes in 2000   50.8 minutes in 2006    60.5 minutes in 2007
Average taxi-out time at 9pm     32.5 minutes in 2000   42.9 minutes in 2006    52.1 minutes in 2007



    Figure 6. Air Travel Consumer Complaints, 2007

      • 37.4 percent of complaints were related to flight problems.
      • 19.7 percent of complaints were related to baggage.
      • 11.1 percent of complaints were related to customer care. (Note: complaints related to
        flight problems, baggage, and customer care represented 68.2 percent of all complaints in
        2007.)
      • 10.3 percent of complaints were related to reservations, ticketing and boarding.
      • 6.8 percent of complaints were related to refunds.
      • 3.8 percent of complaints were related to oversales.
      • 3.8 percent of complaints were related to disability.
      • 7.0 percent of complaints were related to other issues.

    Source: Department of Transportation’s Air Travel Consumer Reports for 2007
Figure 7: Changes in Arrival Demand and Flight Delays and Cancellations,
Summer 2006 versus 2007 (35 Operational Evolutional Plan Airports)

                                Percent Change in Planned    Percent Change in
                Airport
                                         Arrivals              Affected Flights
New York Kennedy                                            Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 36
                             Arrivals: 20 percent
                                                            percent
Fort Lauderdale                                             Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 43
                             Arrivals: 9 percent
                                                            percent
Honolulu                                                    Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 14
                             Arrivals: 7 percent
                                                            percent
Orlando                                                     Percent Change in
                             Percent Change in Planned      Affected Flights: 21
                             Arrivals: 6 percent            percent

Tampa                                                       Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 27
                             Arrivals: 5 percent
                                                            percent
San Diego                                                   Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 10
                             Arrivals: 5 percent
                                                            percent
Charlotte                                                   Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 21
                             Arrivals: 3 percent
                                                            percent
San Francisco                                               Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 19
                             Arrivals: 3 percent
                                                            percent
Las Vegas                                                   Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 6
                             Arrivals: 3 percent
                                                            percent
Atlanta                                                     Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 18
                             Arrivals: 3 percent
                                                            percent
Los Angeles                                                 Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 10
                             Arrivals: 3 percent
                                                            percent
Denver                                                      Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 26
                             Arrivals: 2 percent
                                                            percent
Baltimore - Washington                                      Percent Change in
                             Percent Change in Planned
                                                            Affected Flights: 16
                             Arrivals: 1 percent
                                                            percent
Miami                                                       Percent Change in
                                                            Affected Flights: 25
                             Percent Change in Planned
                                                            percent
                             Arrivals: 1 percent
Chicago Midway                                    Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 2
                      Arrivals: 1 percent
                                                  percent
Washington - Dulles                               Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 9
                      Arrivals: 1 percent
                                                  percent
Salt lake City                                    Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 26
                      Arrivals: 0 percent
                                                  percent
Portland                                          Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 4
                      Arrivals: 0 percent
                                                  percent
Washington - Reagan                               Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 22
                      Arrivals: 0 percent
                                                  percent
Seattle-Tacoma                                    Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 10
                      Arrivals: -1 percent
                                                  percent
New York LaGuardia                                Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 14
                      Arrivals: -1 percent
                                                  percent
Dallas-Fort Worth                                 Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 59
                      Arrivals: -1 percent
                                                  percent
Memphis                                           Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 1
                      Arrivals: -1 percent
                                                  percent
Cleveland                                         Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 6
                      Arrivals: -1 percent
                                                  percent
Houston-George Bush                               Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 4
                      Arrivals: -2 percent
                                                  percent
Detroit                                           Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 23
                      Arrivals: -2 percent
                                                  percent
Boston                                            Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 2
                      Arrivals: -2 percent
                                                  percent
Chicago - O’Hare                                  Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: 8
                      Arrivals: -3 percent
                                                  percent
Newark                                            Percent Change in
                      Percent Change in Planned
                                                  Affected Flights: -2
                      Arrivals: -3 percent
                                                  percent
Philadelphia                                      Percent Change in
                                                  Affected Flights: 8
                      Percent Change in Planned
                                                  percent
                      Arrivals: -3 percent
Phoenix                                                   Percent Change in
                              Percent Change in Planned
                                                          Affected Flights: 8
                              Arrivals: -3 percent
                                                          percent
Minneapolis-St. Paul                                      Percent Change in
                              Percent Change in Planned
                                                          Affected Flights: 49
                              Arrivals: -4 percent
                                                          percent
Cincinnati                                                Percent Change in
                              Percent Change in Planned
                                                          Affected Flights: 17
                              Arrivals: -5 percent
                                                          percent
St. Louis                                                 Percent Change in
                              Percent Change in Planned
                                                          Affected Flights: 16
                              Arrivals: -7 percent
                                                          percent
Pittsburgh                                                Percent Change in
                              Percent Change in Planned
                                                          Affected Flights: 6
                              Arrivals: -10 percent
                                                          percent

Figure 8. Reasons for Flight Delays (June through August 2007)


  Reasons for Flight Delay   Percentage

Late Arriving Aircraft       35 percent
Carrier Caused               29 percent
Weather                      23 percent
Air Traffic Control Volume    4 percent
Runway Closure               3 percent
Other                        6 percent
